<html>
<title> - [H.A.S.C. No. 114-36]THE RISK OF LOSING MILITARY TECHNOLOGY SUPERIORITY AND ITS IMPLICATIONS FOR U.S. POLICY, STRATEGY, AND POSTURE IN THE ASIA-PACIFIC</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                             
                         [H.A.S.C. No. 114-36]

                      THE RISK OF LOSING MILITARY

                     TECHNOLOGY SUPERIORITY AND ITS

                     IMPLICATIONS FOR U.S. POLICY,

                        STRATEGY, AND POSTURE IN

                            THE ASIA-PACIFIC

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 15, 2015

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5631263916352325223e333a267835393b78">[email&#160;protected]</a>  
 




                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                 Mike Casey, Professional Staff Member
                         Michael Tehrani, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, 
  Committee on Armed Services....................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Locklear, ADM Samuel J., USN, Commander, U.S. Pacific Command....     6
Scaparrotti, GEN Curtis M., USA, Commander, United Nations 
  Command, Combined Forces Command, and U.S. Forces Korea........     7
Wormuth, Hon. Christine, Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     3


                                 APPENDIX

Prepared Statements:

    Locklear, ADM Samuel J.......................................    49
    Scaparrotti, GEN Curtis M....................................    81
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    41
    Wormuth, Hon. Christine......................................    42

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................   103
    Mr. Rogers...................................................   103
    Mr. Scott....................................................   103

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
THE RISK OF LOSING MILITARY TECHNOLOGY SUPERIORITY AND ITS IMPLICATIONS 
       FOR U.S. POLICY, STRATEGY, AND POSTURE IN THE ASIA-PACIFIC

                              ----------                              
 
                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, April 15, 2015.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Let me 
thank our members, witnesses, and guests for being here today.
    Before we start on the topic of today's hearing, let me 
just take a moment to welcome formally the newest member of the 
House Armed Services Committee. Steve Russell represents 
Oklahoma's Fifth District. A retired lieutenant colonel in the 
Army, Steve has deployed to Kosovo, Kuwait, Afghanistan, and 
commanded the 1st Battalion's 22nd Infantry in Tikrit. His unit 
played a key role in the capture of Saddam Hussein. So he has 
already, in our briefings and so forth, made an important 
contribution to the committee. We are very glad to have Steve 
join our numbers.
    Today, we hold a hearing on the risk of losing military 
technological superiority and its implications for U.S. policy, 
strategy, and posture in the Asia-Pacific. We probably need to 
get a little better about succinct titles for our hearings, but 
it does bring together a lot of what we have been examining 
over the past couple, 3 months.
    And I appreciate the senior-level attention within the 
Department on the Asia-Pacific region, as well as technological 
superiority. I realize that there are a number of serious 
security issues around the world all happening at the same 
time, the reason that we have had some people testify that it 
is unprecedented in our country's history to have so many 
serious security issues all happening at the same time. But we 
cannot, either on this committee, the Department of Defense, or 
the country in general, cannot allow limited bandwidth to have 
us ignore what is happening in the Asia-Pacific.
    Among the issues that come to the fore, I think, in the 
region for which you all have responsibility is the 
technological superiority issue, which has been a key focus of 
this committee. We have had Under Secretary Kendall, for 
example, testify about our eroding technological superiority, 
especially in light of some of the key investments that China 
is making.
    It also brings together some individual unconventional 
warfare tactics. We focused a lot on what Russia has been doing 
with little green men, but it wasn't that long ago I read a 
paper about the three warfares of China, including 
psychological, media, and legal warfare. They have their own 
unconventional tactics.
    And of course we have in the region North Korea and its 
asymmetric attempts both with its cyber, its missile and 
nuclear programs, just to keep everyone off balance.
    So this region brings together a lot of what we have talked 
about so far this year. And, again, we appreciate everybody 
being here.
    Mr. Smith is not able to be with us this week, but I would 
yield to the distinguished gentlelady from California, Ms. 
Sanchez, in his place for any comments she would like to make.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Ms. Sanchez. Thank you, Mr. Chairman.
    And, again, to our panel, thank you for being before us.
    Obviously, the Indo-Asia-Pacific arena is an incredibly 
important one to our United States and to security in our 
world. I am always a little amused with the fact that everybody 
talks about pivoting towards that direction. I am a 
Californian. We have always been on the Pacific.
    So, to a large extent we have had the opportunity to look 
across that Pacific and work with the nations and accept a lot 
of people who are originally from those countries to our 
California. So I think that we are well-positioned, in 
particular, as Californians, with respect to understanding and 
having ties to those regions.
    The collective security of our world is not only one of 
defense and high-tech solutions to some of that, but it is also 
about culture and the economy. And so I believe that we should 
continue to work in the many myriad of ways to--as we look 
towards that region. Maintaining a significant U.S. military 
capability advantage is clearly a top priority for us from a 
national security perspective. And it is entirely appropriate 
to take a look at the capabilities, especially with high 
technology that these countries in that region are doing.
    Again, we should not presuppose, I think, that there is 
malice involved when somebody is beefing up their military or 
working towards higher military capabilities. And we shouldn't, 
I think, presume that conflict is inevitable. Rather, we should 
be geared toward working together in good faith of preservation 
of our international order.
    And I think that the most significant thing that Congress 
can do to help bolster the U.S. military's technological edge 
and to help advance strategic objectives in the Indo-Asia-
Pacific region is to eliminate sequestration. And I am talking 
not just here in the defense committee, but across the Federal 
board. As I remember Secretary Gates once said, if we don't 
educate our people, if our economy is not good--and I am 
paraphrasing, I am not saying directly--then we don't have to 
worry about our military because it is about our economy and 
about our people.
    So I am looking forward to hearing the testimony today. 
And, Mr. Chairman, I would like to submit Mr. Smith's statement 
for the record. Thank you.
    The Chairman. Thank you. Without objection, it is so 
ordered.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 41.]
    The Chairman. And without objection, the witnesses' 
complete written statements will be made part of the record.
    We are pleased to have with us today the Honorable 
Christine Wormuth, Under Secretary of Defense for Policy; 
Admiral Samuel Locklear, Commander of U.S. Pacific Command; and 
General Curtis Scaparrotti, the Commander of U.S. Forces Korea.
    Again, thank you all for being with us. As I said, your 
complete statements will be made part of the record. And we 
would appreciate you summarizing in your opening comments 
before we turn to questions.
    Ms. Wormuth.

STATEMENT OF HON. CHRISTINE WORMUTH, UNDER SECRETARY OF DEFENSE 
             FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Wormuth. Thank you very much, Chairman Thornberry 
and distinguished members of the committee, for having us here 
today. We are looking forward to the conversation. And I am 
sending my best wishes to Ranking Member Smith for a speedy 
recovery. I know he is not enjoying that process.
    The Chairman. Madam, excuse me. Would you mind getting that 
microphone right in front of you?
    Secretary Wormuth. Sure. That better?
    The Chairman. That is better. The only way it works is 
talking right into it. So thank you.
    Secretary Wormuth. It is a pleasure to be here to talk with 
you about certainly a top priority for Secretary Carter and 
myself, which is our rebalance to Asia-Pacific.
    I am also very pleased to be here alongside Admiral 
Locklear and General Scaparrotti. We work closely together on a 
lot of different issues. They are doing a tremendous job, and 
the men and women who are out there working in Pacific Command 
and at U.S. Forces Korea are really the day-to-day face of our 
rebalance for a lot of countries in the region. So we really 
appreciate the work that they do.
    Both Secretary Carter and I have recently come back from 
Asia, different parts of the region, but I think we both heard 
in a very resounding way a lot of support from the countries 
out there for the rebalance that we have undertaken, and also a 
lot of desire to have even greater U.S. leadership and 
engagement with the countries that are there.
    In the past 70 years it has obviously been a time of 
tremendous change and opportunity for the Asia-Pacific region. 
As nations there rise and become more prosperous it has created 
a lot of opportunity. At the same time, the dynamism in the 
region has also created a much more complex security 
environment in which we are now operating.
    In particular, China's very rapid military modernization, 
its opaque defense budget, the--its actions in space and 
cyberspace, and its behavior in places like the East and South 
China Seas raise a number of serious questions for us. Though 
China's expanding interests are a natural part of its rise, it 
does continue to pursue activities and to make investments that 
lead many countries in the region, including the United States, 
to have some serious questions about its long-term intentions.
    China's behavior in the maritime domain, I think, in 
particular, has created significant friction for its neighbors. 
The government's efforts to incrementally advance its claims in 
the East and South China Sea, and its extensive land 
reclamation activities, particularly the prospect of further 
militarizing those outposts, are very concerning to us. We have 
urged China to show restraint and to refrain from further 
activities that undermine regional trust.
    We also have continued to urge China to clarify the meaning 
of its ambiguous ``nine-dash line'' claim as a starting point 
as a way to start reducing tensions and provide greater 
transparency to countries in the region.
    While the United States and China are not allies, we also 
don't have to be adversaries. I think both of us, both the 
United States and China recognize that a constructive U.S.-
China relationship is essential for global peace and 
prosperity. We are therefore not only talking to China about 
actions they undertake that concern us, but we are also talking 
to them and undertaking activities to build transparency and to 
improve understanding, particularly through our military-to-
military engagement with the PLA [People's Liberation Army].
    We also face a number of other challenges, obviously, in 
the region. Particularly I think of greatest concern to us in 
DOD [Department of Defense] is North Korea's dangerous pursuit 
of ballistic missiles and its weapons of mass destruction 
program. North Korea, as you all know, has repeatedly 
demonstrated its willingness to use provocations as a means to 
achieve its ends. And just in the last year, we saw a very 
significant cyber attack on Sony Pictures Entertainment.
    There are also other challenges in the region that are 
magnified by a growing range of nontraditional threats, such as 
the increased flow of foreign fighters both to and from Asia, 
the trafficking of illegal goods and people, and devastating 
natural disasters such as the cyclone we saw last month in 
Vanuatu.
    So in response to these shifting dynamics, DOD has 
consistently worked to implement President Obama's whole-of-
government strategy towards rebalancing in the Asia-Pacific. 
One of the most important pieces of the administration's work 
in the area of the rebalance is to finalize the Trans-Pacific 
Partnership [TPP]. Our military strength ultimately rests on 
the foundation of our vibrant and growing economy, so we 
believe strongly that TPP is not just part of our economic 
agenda, but is also a very important part of our national 
security agenda. And I would urge Congress to pass Trade 
Promotion Authority and allow negotiators to conclude this very 
important agreement.
    In DOD, we are really focused in terms of the rebalance on 
a couple of key lines of effort. First is strengthening our 
security relationships with allies and partners in the region. 
In Japan, for example, we are very close to completing a 
historic update of the defense guidelines, which really 
wouldn't have been possible a decade ago. We are also working 
with the Republic of Korea to develop a comprehensive set of 
alliance capabilities to counter the North Korean threat. And 
in Australia and the Philippines, last year we signed 
important, groundbreaking posture agreements that will give us 
enhanced access for our forces and also allow us a lot of new, 
combined training opportunities for our partners in Australia 
and the Philippines.
    Our strong friendships in the region also go beyond 
traditional alliances to some of our new relationships, 
particularly in South and Southeast Asia. In addition to our 
very strong partnership with Singapore, where I just visited a 
couple weeks ago, we also are strengthening our relationships 
with countries like Indonesia, Malaysia, and Vietnam. And 
finally, we are investing, of course, in our partnership with 
ASEAN [Association of Southeast Asian Nations], which is really 
leading the way in terms of trying to build a more robust 
security architecture in the region.
    And lastly, in terms of relationships, the U.S.-India 
relationship is a very important and very exciting partnership. 
As you all know, just this January, President Obama and Prime 
Minister Modi signed a Joint Vision Statement. We also 
completed the first update in 10 years to our Defense Framework 
with India, and we concluded four ``pathfinder'' projects for 
technology development with India under the Defense Trade and 
Technology Initiative.
    In tandem with our efforts to modernize relationships in 
the Pacific, the Department is also updating our forward 
presence. And this isn't just about putting more assets into 
the region. It is also about using those assets in new ways. 
For example, we have developed a more distributed model for our 
Marine Corps that is reducing our concentrated presence in 
Okinawa through relocating marines to Australia, Guam, Hawaii, 
and mainland Japan.
    The Navy is also working more on its rotational presence 
concept to include being on track to have our goal of having 
four Littoral Combat Ships [LCS] rotating through Singapore by 
2017. We have had two of our LCS ships go to Singapore already. 
And the Army will be initiating its first rotational deployment 
of a brigade combat team to the Korean Peninsula later this 
spring.
    Finally, and I think going very much to the issue of the 
technology concerns that the committee is interested in, we are 
also bringing our best capabilities to the Asia-Pacific region. 
We are making significant investments to sustain our American 
technological edge into the future in the air, land, sea, and 
undersea domains. We are investing in precision munitions that 
will increase our ability to strike adversaries from greater 
standoff distances and we are working on new capabilities to 
allow us to continue to operate freely in space and cyberspace.
    All of these efforts demonstrate the seriousness of our 
Department's commitment to protecting U.S. military primacy in 
the Asia-Pacific theater. And our focus on technology is really 
the impetus for our Defense Innovation Initiative, which is a 
long-term, comprehensive effort to make sure that we enhance 
our military competitive edge even as we face budget 
constraints.
    The Department's rebalance efforts, as well those of our 
interagency colleagues, are part of a long-term project that 
reflect, I think, the enduring interest the United States has 
in the Asia-Pacific region. We look forward to continuing to 
work with Congress on the rebalance. And I look forward to 
questions. Thank you.
    [The prepared statement of Secretary Wormuth can be found 
in the Appendix on page 42.]
    The Chairman. Thank you.
    Admiral.

   STATEMENT OF ADM SAMUEL J. LOCKLEAR, USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Locklear. Mr. Chairman, Congresswoman Sanchez, and 
distinguished members of the committee, thank you for the 
opportunity to appear before you today with Secretary Wormuth 
and General Scaparrotti, who I work very closely with both of 
them. Before we begin I would like to ask that my written 
testimony be submitted for the record.
    For more than 3 years I have had the honor and the 
privilege of leading the exceptional men and women, military 
and civilian, of the United States Pacific Command [USPACOM]. 
These volunteers are skilled professionals dedicated to defense 
of our Nation. They are serving as superb ambassadors to 
represent the values and strengths that make our Nation what it 
is: great. I want to go on record to formally thank our service 
members, civilians, and their families for their sacrifices.
    USPACOM continues to strengthen alliances and partnerships, 
maintain an assured presence in the region, and demonstrate 
U.S. intent and resolve to safeguard our U.S. national 
interest. When I spoke to you last year I highlighted my 
concern for several issues that could challenge the security 
environment across the Indo-Asia-Pacific. Those challenges 
included responding to humanitarian assistance and disaster 
relief events; dealing with an increasingly dangerous and 
unpredictable North Korea, a challenge that General Scaparrotti 
and I remain aligned in addressing; a continued escalation of 
complex territorial disputes; increasing regional transnational 
threats; and the complexity associated with China's continuous 
rise.
    In the past years these challenges have not eased. They 
will not go away soon. But the Asia rebalance strategy is and 
has taken hold. It is achieving its intended goals.
    However, the greatest challenge remains the continued 
physical uncertainty resulting from sequestration. If the 
Budget Control Act remains in force, the greatest challenge in 
the Indo-Asia-Pacific will be dealing with the consequences to 
the security of our national interest as we respond to a 
rapidly changing world. I echo the Secretary of Defense, the 
Chairman of the Joint Chiefs, and the service chiefs' testimony 
before Congress. Our Nation is being forced into a resource-
driven national security strategy instead of one properly 
resourced and driven by our enduring national interest.
    In the Indo-Asia-Pacific we are accepting more risk, not 
less. Sequestration will force harmful reductions in force 
size, structure, and readiness that will reduce my ability to 
manage crisis space and provide options to the President and 
the Congress, and diminishes United States prestige and 
credibility in the region and around the globe.
    In the last year, at great expense to the readiness of the 
surge forces' position in the continental United States, 
USPACOM has maintained its forward forces, focused on 
protecting the homeland, deterring aggressors, such as North 
Korea, strengthening alliances and partnerships, and developing 
the concepts and capabilities required for us to remain 
dominant in a world that is growing in complexity with threats 
that continually increase against a seemingly unending stream 
of constraints.
    Without adequate resources, we will be forced to make 
difficult choices today that will have strategic consequences 
to our future.
    I would like to thank the committee for your continued 
interest and support. I look forward to your questions.
    [The prepared statement of Admiral Locklear can be found in 
the Appendix on page 49.]
    The Chairman. Thank you, sir.
    General.

STATEMENT OF GEN CURTIS M. SCAPARROTTI, USA, COMMANDER, UNITED 
NATIONS COMMAND, COMBINED FORCES COMMAND, AND U.S. FORCES KOREA

    General Scaparrotti. Mr. Chairman, Congresswoman Sanchez, 
and distinguished members of the committee, I am honored to 
testify today as the Commander of the United Nations Command, 
Combined Forces Command, and United States Forces Korea, and 
also alongside Admiral Locklear and Under Secretary Wormuth. On 
behalf of the service members, civilians, contractors, and 
their families who serve our great Nation in the Republic of 
Korea, one of our most important allies, thank you for your 
support. I have prepared some brief opening remarks and I thank 
you for submitting them to the record.
    Last year, I testified that the combined and joint forces 
of the United States and the Republic of Korea were capable and 
ready to deter, and if necessary, respond to North Korean 
threats and actions. Due to our accomplishments in 2014, I 
report to you that our strong alliance is more capable of 
addressing the rapidly evolving and increasingly asymmetric 
North Korean threat.
    In recent years, North Korea has aggressively developed and 
utilized asymmetric capabilities, such as cyber warfare, 
nuclear weapons, and ballistic missiles to advance its 
interests. To put this in perspective over time, in 2012, my 
predecessor noted North Korea's advancements in cyber and 
nuclear capabilities during his opening statement to this 
committee. A year later, North Korea conducted cyber attacks on 
South Korea's banks and broadcasting stations. And in 2014, 
they boldly projected their cyber capabilities against Sony 
Pictures in the United States, in an effort to inflict economic 
damage and suppress free speech.
    This example represents a trend that is persistent across 
several North Korean asymmetric capabilities. My top concern is 
that we will have little to no warning of a North Korean 
asymmetric provocation, which could start a cycle of action and 
counteraction, leading to unintended escalation. This 
underscores the need for the alliance to maintain a high level 
of readiness and vigilance.
    Last year, the alliance took significant steps in improving 
its capabilities and capacities that deter aggression and to 
reduce its operational risk. But our work is not done. In 2015, 
we will maintain this momentum by focusing on my top priority, 
sustaining and strengthening the alliance, with an emphasis on 
our combined readiness. This includes ensuring the rapid flow 
of ready forces into Korea in the early phases of hostilities 
and improving our ISR [intelligence, surveillance, and 
reconnaissance] capabilities and critical munitions.
    Based on the national security strategies of both our 
nations, the United States will continue to be a steadfast 
strategic partner to South Korea, and South Korea is poised to 
be a long-lasting and important ally to America. Our enduring 
military partnership in South Korea is the preeminent example 
of bilateral security cooperation and a visible element of 
American leadership and our Nation's commitment to the Asia-
Pacific region.
    The men and women serving on freedom's frontier, defending 
the Republic of Korea remain thankful for this committee's 
unwavering support in prioritizing resources that enable us to 
defend our national interests in Asia, while advancing 
universal values and international order.
    I am extremely proud of our service members, civilians, and 
their families serving in the Republic of Korea, who never lose 
sight of the fact that they are at freedom's frontier, 
defending one of our most important allies and vital American 
interests.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Scaparrotti can be found 
in the Appendix on page 81.]
    The Chairman. Thank you.
    I want to ask, Admiral and General, each of you, about this 
issue of technological superiority. I mentioned Under Secretary 
Kendall has testified that our technological superiority that 
we have enjoyed for years is eroding, and we have had many 
other witnesses support that. There are a variety of factors 
that have played into it, what we have done to ourselves with 
budget cuts, a procurement process that cannot keep up with 
changes in technology, the fact that some of our competitors 
have stolen incredible amounts of information from us and 
benefitted from it. I mean, all of these things, and probably 
others, contribute to it.
    But, each of you are responsible for dealing with the world 
today as we find it and being prepared with plans and 
contingencies and using the forces that we have today. So I 
would be interested, as a combatant commander, as a commander 
responsible for a key area of the world, are you concerned 
about these trends in technology and our ability to keep up? 
Are there some areas that concern you more than others given 
your area of responsibility? And are there suggestions you have 
about how we, the United States, could and should adjust to 
meet these changes? Kind of a broad picture of what it is like 
from your end, as warfighting commanders.
    Admiral.
    Admiral Locklear. Well, thank you, sir.
    Over my career, my observation is that when we were dealing 
with the Soviet Union in the Cold War, that we had a concerted 
effort as a military to have that technological edge that 
really provided a great, a tremendous amount of benefit and 
allowed us to prevail, I think, during that time.
    As we entered the last part of this past century and we 
started efforts in the Middle East, we predominantly were 
dealing with wars and events that--where we had such a large 
technological superiority, that it didn't--we had air 
dominance, we had undersea dominance, we had dominance in every 
area. And that was good, I think, and we used that dominance.
    But during that time I think that our priorities for 
watching what the rest of the world was doing as countries came 
along that had the ability and the desire to want to improve 
their militaries and improve their technological capabilities, 
that we kind of took a little bit of a break and didn't make 
the types of investments that we needed to make. So during that 
time our relative superiority, I think, has declined, and 
continues to decline.
    Some of the reasons for that I think are because countries 
have more money to spend. There is a greater proliferation of 
technology. Some of it has been stolen through intellectual 
property. Some of it has been sold around the world in 
different venues that you are all aware of.
    The other thing that makes it challenging for us is our 
general vulnerability. I mean, when it comes to the Asia-
Pacific, we are a Pacific nation, but we are also an island 
nation. So we rely very heavily on power projection, which 
means we have to be able to get forces forward, to sustain them 
forward, and we rely heavily on systems that several decades 
ago weren't even known about or thought about too much, and 
that really exists now in the cyber world and the space world, 
which unveils, if we are not careful, will unveil 
vulnerabilities that we have to pace with technological 
advancements.
    To the degree of how we address these, what is important 
for me is making sure that the forces we have, number one, 
can--are dominant. You never want to go into any crisis or even 
in deterrence to try to manage a situation where the force is 
not dominant. It needs to be technologically superior across 
multiple domains. So if you start at the top and you go from 
space, to cyber, to air, to integrated air and missile defense, 
to sea, maritime, to subsurface maritime, there is 
technological challenges as all of the militaries in the world 
get better in these domains, that we must continue to pace for 
us to be able to be relevant in the domains that allow us to 
project U.S. power in defense of U.S. interests.
    Now, in the buildup to this Presidential budget submission, 
I made it clear through a series of processes in the Pentagon, 
the types of key areas where we need to maintain our focus on 
technological advancement, and I think most of those were 
adequately--accurately--represented in Secretary Kendall's 
testimony. And I think that if the President's budget is 
supported in those areas, that it will continue to get at the 
types of technological advances that are critical for us to 
stay forward and to protect U.S. interests in the Asia-Pacific.
    General Scaparrotti. Mr. Chairman, I would echo what 
Admiral Locklear had to say, particularly on the peninsula. You 
discussed earlier the asymmetric capabilities that are being 
developed by North Korea. Really, as they develop those 
asymmetric capabilities, they are specifically orienting on 
what they consider to be some of our vulnerabilities, and 
through their development they are trying to close our 
dominance, basically. And so we have to continue to develop our 
capabilities, to change our posture, our concepts, our 
employment in order to ensure that we maintain dominance.
    The last thing I would say in a peninsula is because we are 
operating on a peninsula, it is a relatively small theater. Air 
and naval dominance is very important to the agility that I 
have on the peninsula itself if we have a crisis. So all of 
those things are things that I think about quite often.
    And finally, the specific asymmetric capabilities that I 
think about the most is the ballistic missile capability North 
Korea possesses and our continued ability to be able to counter 
that.
    And then finally, on ISR. Many of our adversaries are 
becoming more proficient in determining how to work inside of 
our capabilities, our intelligence, surveillance, and 
reconnaissance capabilities, and also how to use deception and 
other means in order to limit that advantage that we have 
today.
    The Chairman. It seems to me in no area of the world is it 
more true that a loss of technological superiority means 
increased risk to American lives than on the Korean Peninsula. 
So I think that is another way to keep in mind.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you again for your testimonies.
    I represent the largest Vietnamese population outside of 
Vietnam in the world sitting right there in Orange County, 
California. As I said, we have always had our view to what is 
going out in the Asian countries and the Pacific region. And 
last year, Vietnam and the United States agreed to ease its 
lethal weapons embargo on Vietnam in order to improve the 
maritime security and to address the ongoing conflicts in 
regards to the islands in the East Sea.
    You know, but on the other hand, I have worked enough on 
the Vietnamese issues to understand that Vietnam still is 
lacking so much with respect to its human rights issues. In 
particular, in 2000, when I went with President Clinton for the 
bilateral trade agreement, and then later when we took the, 
took Vietnam off of the Countries of Particular Concern list 
with respect to religious infractions, in order for them to be 
able to go into the World Trade Organization. So we continue to 
see that things don't get better with respect to the human 
rights issues, or marginally at times, and then worse.
    So can you address for me the roadmap for weapon sales to 
Vietnam and what types of lethal weapons your--would be 
precluded if Vietnam continues on its road of not changing its 
human rights record. Even with respect, for example, for Human 
Rights Watch and our own State Department. They are 
consistently marked very, very low with respect to human 
rights.
    So what do you see, or what can we expect from this 
administration and this Pentagon with respect to weapons sales 
to Vietnam? And are we going to tie any conditions to lifting 
that embargo?
    Secretary Wormuth. Congresswoman Sanchez, thank you very 
much for that question.
    We are still in the process now of working with the 
Department of State, our colleagues there, to work through how 
best to leverage the partial lifting of the lethal weapons ban. 
But certainly a part of those consultations is looking at the 
human rights picture in Vietnam. And we are very much, even as 
we in the Department of Defense are very interested in 
deepening our relationship with Vietnam, we also are committed 
to pushing for greater progress on the human rights front. So 
that is something that we are very much taking into account as 
we look at how best to work with Vietnam.
    I think it is fair to say that, broadly speaking, the kinds 
of capabilities that we think that would be most useful for 
Vietnam in terms of its security needs are those that are--that 
would be helpful to them in terms of maritime security, in 
terms of maritime domain awareness, in terms of helping them 
strengthen their ability to provide humanitarian assistance and 
disaster relief.
    So those are the kinds of areas that we are focused on with 
them and looking at what kinds of arms might be relevant to 
that. But we are still in the process of figuring out how best 
to approach specific items they might be interested in.
    Ms. Sanchez. And, Madam Secretary, we have also seen, 
obviously, a pretty aggressive stance by China with respect to 
territorial rights or claimed territorial rights in the East 
Sea. What types of help could we give to Vietnam to ensure its 
sovereignty over the islands that it believes are part of their 
integral country?
    Secretary Wormuth. Well, I think, first, as you know, we 
don't take a position on the territorial claims, but we are 
very much committed to wanting to see countries in the region 
work through diplomacy to try to resolve those territorial 
disputes. So we are focused on encouraging all of the countries 
to seek peaceful means for resolution and to use diplomacy and 
use available mechanisms.
    At the same time, I think helping countries in the region 
like Vietnam, but other countries as well, strengthen, again, 
their own maritime security capabilities and their own maritime 
domain awareness capabilities is helpful to them in terms of 
them being able to, again, maintain some visibility over their 
territorial waters, for example. And I don't know whether 
Admiral Locklear would want to add on that.
    Ms. Sanchez. And might you also explain to me the timeline 
or how we could work together to ensure that this partial 
release of the weapons ban is not detrimental with respect, in 
particular, to our, I believe what should be, and it is for me 
at least, a requirement that we see better human rights from 
Vietnam? What is the process in which you are going through to 
take a look and figure out how we will help militarily?
    Secretary Wormuth. First and foremost, we are working with 
the State Department, again, I think, to try to make sure that 
we have agreement on what are the basic policy parameters for 
how we would approach how best to leverage the partial lifting 
of the ban. We are then in consultations with Vietnam about 
what their needs are.
    So the State Department really has the lead on the--on 
talking with them about human rights and the importance of 
making progress in that area. We reinforce that message. But we 
have a process internal to our government to sort of lay out 
our basic parameters, and then we have an ongoing dialogue with 
Vietnam about what their needs are.
    And that is a very active dialogue. My Assistant Secretary 
for Asia-Pacific Affairs is actually a former ambassador to 
Vietnam, so we have a very active conversation with them.
    Ms. Sanchez. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, I want to--Madam Secretary, I took down some notes, 
what you had said in your prepared remarks, and also what you 
said today: We urge the Chinese, actions that concern us, we 
bring this to the Chinese's attention. I am one of the 
individuals in the Congress that for years have been speaking 
out publicly back in my district, the Third District of North 
Carolina, about the growing debt of our Nation because I 
believe sincerely that that is the biggest threat to our 
national security, is the growing debt.
    Admiral, that is why we passed the bill--I did not vote for 
it, to be honest about it--the sequestration.
    And then I see we continue to play a shell game with the 
budget and with the American people's money and find ways to 
continue to pump up the needs for our military.
    I believe in honesty in budgeting. I don't believe in 
dishonesty, but, anyway, in budgeting. But I am for honesty in 
budgeting.
    This is my question to you. I have long thought, maybe it 
is because I was raised in eastern North Carolina, that if you 
owe someone money and you can't pay them back, they just don't 
have the same respect for you. And I look at the fact that 
President Bush raised the debt ceiling 7 out of 8 years that he 
was the President. Mr. Obama has raised the debt ceiling 7 out 
of 6 years that he has been the President. And you know, when 
we raise the debt ceiling what we are saying to the world is we 
can't pay our bills; that we have to sell our financial 
instruments and somehow finance our debt. Okay.
    The Chinese buy a lot of our debt. So I really would like 
to know, when our representatives of our government, whether it 
be military or non-military, are sitting there facing the 
Chinese, if it is a respect, because we continue to have to 
borrow money from the Chinese to pay our bills. And they see 
all of the news articles of how we are spending billions and 
billions in Afghanistan, that much of it, according to John 
Sopko, is wasted. And yet, we are taking the billions and 
billions that we are spending overseas that is wasted, taken 
away from rebuild--from building our military, which needs to 
be rebuilt.
    And I get to a point that I just don't understand an 
administration--and I would say this if it was a Republican 
administration--how in the world can we continue to play this 
game of spending, spending, spending, and borrow, borrow, 
borrow, and then we think we have got equal placement to talk 
to the Chinese about we are concerned about this and we urge 
you to do that. Do they really listen to us?
    Secretary Wormuth. Congressman, I certainly agree that, as 
I said in my opening remarks, the foundation of our vitality as 
a country is a strong economy, and that underpins our ability 
to have a strong military. And, again, I think that is one of 
the reasons why we in the Defense Department have been 
expressing our support for important agreements like the Trans-
Pacific Partnership, for example.
    I think China, again, you know we have a very independent 
global--interdependent global economy at this point, and we are 
very important customers for China, as are many other countries 
around the world. So I think having a robust and growing 
economy in the United States is important and the Chinese see 
the value of that for them. We have--and I also think they 
recognize very much that even as they modernize their military, 
the United States military remains the premier military force 
in the world.
    And then, in addition to our very strong technological 
track record, we also have an operational track record that is 
unmatched. I mean, our military's combat experience is 
unmatched by almost any country in the world, and it has been 
honed over the last more than 10 years. And I think China very 
much respects that as we, as we talk to them about our 
concerns.
    Mr. Jones. Well, I also found it very interesting that you 
mentioned Trade Promotion Authority in your comments. There are 
many of us who believe sincerely that any President, Democrat 
or Republican, if you give them Trade Promotion Authority, then 
you are damaging our constitutional ability to maintain 
fairness in trade, so.
    But thank you for your testimony.
    I yield back.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for your testimony today. In 
particular, Admiral Locklear, I want to thank you for your 
leadership at PACOM [Pacific Command] for the last 3 years. I 
thank you for your service and I wish you all the best of luck 
in your future endeavors.
    If I could start with you, Admiral. You mentioned China's 
aggressive shipbuilding program in addition to their 
significant advances in electronic warfare capabilities, 
Admiral. How do our forces in PACOM compare in those aspects? 
And where do you believe improvements need to be made, besides 
continued and sustained investment in the U.S. nuclear 
submarine force, as you mentioned?
    I am particularly concerned and interested. I think that 
the Chinese at this point are--have confidence that they could 
potentially turn the lights off on our use of cyber 
capabilities on our fleet and our ability to respond, both 
figuratively and literally.
    So I want to know where you--what your views are and how we 
stand.
    Admiral Locklear. Well, thank you, sir. It is my assessment 
that we remain the most dominant military power in the world 
from all aspects. And I think that there is hardly a country--
there is not a country in the world that would disagree with 
that today, even though I think they would recognize that the 
relative parity of our relative gap between how good we are 
versus how some of the other forces may be developing is 
shrinking.
    In the case of the maritime forces that you have talked 
about with the PRC [People's Republic of China], they are on an 
aggressive strategy, an aggressive shipbuilding campaign. They 
seem to have limited restrictions on how fast they can produce 
systems, how fast they can produce ships, submarines. And they 
are producing what I would consider to be pretty good ships and 
submarines.
    But I still believe that we remain and we have the best 
ships. We have clearly the best ships, the best submarines, the 
best aircraft carriers, and the best people running them in the 
world. So I am generally pretty good in that case.
    But when it comes to dealing day to day in the Asia-
Pacific, what I require, first of all, we have a forward-
deployed force that operates with our host nations--Japan, 
Korea--operates extensively in that region. And that force 
needs to be ready, because it is not only ready for day to day 
to maintaining the deterrent oversight security of the region, 
but it is also critical to ensure that we are prepared for a 
quick reaction if we have to do something in North Korea.
    So those forces need to be ready. They need to be the best 
that we have. They need to be of the highest technical 
capability that we have. And to the degree that we can get 
host--continue to get good host nation support, which I think 
we have today, we need to pursue that.
    Mr. Langevin. But I want to speak specifically to 
electronic warfare capabilities if you could, Admiral.
    Admiral Locklear. Yeah. In the electronic warfare arena, I 
think that we are, because we have operated in environments, as 
I have said in earlier statements, around the globe that--where 
we have limited denied area through electronic means, I think 
our electronic warfare capability has diminished, has not kept 
pace with where we need to be in the future. And we are taking 
some steps to take a harder look at how we get at electronic 
warfare.
    Of course, as you talk about electronic warfare then it 
starts to get into the whole cyber issues, which are now 
being--we are working hard to try to determine how we best 
defend our cyber assets, how we organize ourselves to do that, 
how we train a workforce to be able to do that. And that is all 
part of the President's budget that has come forward that gets 
at those particular issues.
    Mr. Langevin. Good. Well, I share your concern there, 
Admiral.
    With regards to North Korea, both you and General 
Scaparrotti mentioned in your testimonies that their cyber 
actors continue to conduct cyber actions against South Korean 
military and civilian networks. How confident are you that this 
isn't happening to our U.S. Forces Korea infrastructure as 
well? And additionally, how are we defending ourselves, as you 
mentioned in your testimony, China generating insights into our 
U.S. security policies, defense networks, logistics and 
military capabilities through their cyber program?
    General Scaparrotti. Thank you.
    In regards to Korea and the threat from North Korea, I am 
confident of our ability to defend our military networks. We 
work very closely with the Republic of Korea, our partners and 
allies, to ensure that, because we have a combined command and 
control system, that we close any vulnerabilities there. And we 
have been working in the past year very hard to develop our 
cyber capabilities as a team.
    However, you know, that is an ongoing challenge that we 
have to stay on top of. North Korea is getting better every 
day.
    Mr. Langevin. Thank you, Mr. Chairman.
    The Chairman. Mr. Forbes.
    Mr. Forbes. Mr. Chairman, thank you.
    Madam Secretary, General, Admiral, thank you so much for 
your service to our country. Thank you for being here today.
    We have had a couple of milestones in the last few weeks. 
One, the Japanese have now exceeded the number of planes they 
have had to scramble against Chinese and Russian planes since 
the Cold War, as I understand it. We also had the Office of 
Naval Intelligence print this report, first time they have done 
it since 2009, talking about a compelling concern about Chinese 
activity in the disputed waters off the East and South China 
Sea.
    I also concur with your comments about sequestration as it 
relates to national defense, although I really question anyone 
on this committee or the administration that would suggest that 
we shouldn't remove defense sequestration unless we can also 
give the EPA [Environmental Protection Agency], the IRS 
[Internal Revenue Service], and the GSA [General Services 
Administration] all the money they want or unless we can quench 
the thirst of every other agency that drinks from every Federal 
trough. To hold defense sequestration hostage against that 
would be unconscionable.
    My concern today as we talked about it, Admiral Locklear, 
in this committee, we talked about the high-end technological 
superiority. But I am also concerned about what we are seeing 
happen at the lower end. You mentioned, I think correctly, 
China launched more naval ships than any other country in 2013 
and 2014, and they expect the same for 2014 and 2015. But I am 
also concerned about what they are doing with their Coast 
Guard. They now have 95 large cutters, 110 small cutters. That 
is a total of 205. That is 68 ships less than the entire U.S. 
Navy, and they have more ships in their Coast Guard than Japan, 
Vietnam, Indonesia, Malaysia, and Singapore have combined.
    We don't always rate those as naval ships, but you have 
seen this picture, I am sure. This picture is of a Chinese 
Coast Guard vessel. They have labeled on here Tugboat number 
25. It is painted white. This is one of their amphibious naval 
ships. It is number 908. It is painted gray. Other than being 
painted gray and the number on there, there is virtually no 
difference, I don't think, between these two ships. And that is 
something that is really concerning me, because we don't always 
measure those.
    [The pictures referred to were not available at the time of 
printing.]
    Mr. Forbes. So my question for you today is not the high-
end technological superiority, but when we are seeing Iranians 
in Yemen, we are seeing Russians in the Ukraine, we are seeing 
Chinese on the Senkakus and the artificial islands they are 
building up, what strategies, concepts, forces, and 
capabilities do you think we need to counter this kind of gray-
zone aggression we are seeing in Asia?
    Admiral Locklear. Well, thank you, sir. Your--the two 
pictures you showed I think were accurate, the way I understand 
it. The Chinese are engaging in a comprehensive military 
modernization program that wants to transform not only the PLA 
into a high-end kind of network-centric military capable of 
large-scale operations--we have talked about that--but they are 
also working on the lower end to ensure that they have a 
maritime security force, which we would equate to a Coast Guard 
or a fisheries patrol, that by numbers, you add up all their 
numbers and everybody else's in Asia, in that category they 
exceed everybody else's put together.
    And I think that they went down that path after they saw 
what was happening in the Senkakus. They took some of the gray 
hulls, and we observed them, shipped those over to be what they 
would call noncombatants or maritime patrol ships by maybe just 
changing the color of them.
    They show no slowdown in the pace of their military 
modernization, particularly in their Navy, even though their 
economy has dropped a little bit. They are still on about a 10 
percent increase in 2014; 2015, it will be a little bit more. 
That is the fifth straight year we have seen them do double-
digit increases.
    Of course, their military is, on the high end prepares for 
issues around Taiwan and what they would call their near seas. 
Their maritime security are put in a position to be able to 
gain influence, particularly in the South China Sea and in the 
East China Sea, to further their, what they consider their 
national interests there.
    Now, they are doing this in combination with what we have 
seen to be a fairly massive land reclamation in the Spratly 
Islands and upgrades to facilities in the Paracel Islands, 
which are the two regions in the South China Sea.
    Now, the implications of that for us are that it provides 
an ability for them to deploy more of these lower-end ships 
down there, provides ability to base them down there, to 
resupply them. It allows them to exert basically greater 
influence over what is now a contested area. Its expanded land 
features down there also could eventually lead to the 
deployment of things such as long-range radars, military and 
advanced missile systems, and it might be a platform for them 
if they ever wanted to establish an air defense, an ADIZ [Air 
Defense Identification Zone], an air defense zone down there 
for them to be able to enforce that from.
    Up to this point in time, the nations around them, the 
Southeast Asian claimants have really had little success in 
formulating an effective response to the PRC actions down 
there. None of their efforts have slowed the PRC in the South 
China Sea. And they recognize that stopping the PRC would 
require a change in the strategic environment down there.
    So what are the types of things that we need to do down 
there? First, the forces we need to stay forward. We need to 
have the types of intelligence and search, ISR assets that 
allow us to maintain our knowledge of what is going on. These 
are globally stressed because of the things that we are doing 
in Afghanistan and in Iraq and in Yemen, and those--many of 
those assets are similar in type to ones we would use in that 
arena. So we need to ensure that we can sense and see what is 
going on because it allows me to optimally use the forces that 
we have.
    Mr. Forbes. Admiral, my time has expired, but would you 
mind submitting that to us for the record? It is important that 
we have it as a committee.
    Admiral Locklear. Absolutely, sir.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Forbes. And I am sorry, Mr. Chairman. I yield back.
    The Chairman. Thank you. I appreciate it.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Secretary Wormuth and Admiral Locklear and General 
Scaparrotti, I want to thank you for coming today.
    And as the representative from Guam, I appreciate, Mr. 
Chairman, your calling the committee together, for taking time 
to further examine our posture in the Asia-Pacific region.
    Admiral Locklear, I have a question for you. As the ranking 
member of the Readiness Subcommittee, I would like to focus on 
training capabilities in the Asia-Pacific region. Our Marines 
in Okinawa have degraded training capabilities, and the Army 
and the Air Force have significant degradation of training 
capabilities elsewhere in the region.
    Can you comment on how the Department is looking at 
improving these capabilities? We are moving forward with a 
live-fire training range on Guam, but what about larger 
training exercises and the need for improving training 
capabilities in the Northern Marianas Islands? I think that the 
committee has questions about the cost, and I understand PACOM 
has a handle on many of these matters. So could you answer that 
for me?
    Admiral Locklear. Well, thanks for the question.
    It is clear that for us to be as far forward as we are, 
that we need to have adequate facilities to be able to train 
and keep our forces ready at the high end. So it requires, I 
think, a multipronged strategy. One is, you mentioned first, is 
your home, is in Guam, is ensuring that the Guam plan that we 
have for the relocation of the Marines there stays on track, 
and we really appreciate the support of this committee in doing 
that as we go forward. And it is on track.
    As we look at the entire Guam complex and bringing those 
Marines there, we envision, with the support of the Marianas 
Islands, the Northern Marianas Islands' governments up there to 
be able to put in place a range up there that allows not only 
us to keep our marines that are there ready, but also could 
bring other nations into play in that strategic part of the 
world for us to be able to learn together and train together 
and maximize the opportunity for interoperability between our 
militaries.
    It is also very important that in Alaska, that we get the 
range systems in Alaska correct and we maintain those, because 
that is where we get much of our high-end training, in those 
ranges in Alaska.
    As you know, we are also working very closely with our 
allies in Australia, and in Northern Australia for having 
access to those really magnificent, broad ranges that are there 
so that we can work together with them.
    So I think that we have a good plan if we can bring it all 
together.
    Ms. Bordallo. Thank you. Thank you very much.
    Admiral, I have another question for you. Can you comment 
on the progress of the U.S.-Japan defense guidelines, and what 
do you envision occurring to implement these guidelines in the 
near term?
    Admiral Locklear. Well, the guidelines process is ongoing, 
and we anticipate that later this year that the guidelines will 
be completed and signed.
    Ms. Bordallo. I was going to ask, yes, the Secretary as 
well.
    Admiral Locklear. And what we--the real key to the 
guidelines is making sure that, first of all, that we 
militarily, both countries recognize the importance the 
alliance. This is one of the most important alliances in the 
world, for not only Japan, but for the United States, but also 
for the region, and ensuring that we get this right and that we 
are able to go forward in a military way that provides the 
peace and security and prosperity for the region for both 
countries is important. And it starts to get at more specifics 
of how we are going to do that. And it also forces, I think in 
this case, or encourages the Japanese to kind of look at how 
they view the alliance and how they are going to participate as 
we go forward.
    Ms. Bordallo. Thank you.
    Madam Secretary.
    Secretary Wormuth. Just to add on that, I think we 
anticipate finishing up the defense guidelines right around the 
time that Prime Minister Abe comes to Washington later this 
month.
    Ms. Bordallo. Very good.
    Secretary Wormuth. And a couple of things I think that are 
really notable and important about the defense guidelines are, 
first of all, that there will be a whole section that really 
speaks to the collective self-defense vision that Japan has for 
the role of its Self-Defense Forces. But it also will have a 
new alliance coordination mechanism which will again further 
our ability to work with Japan, to help Japan with its security 
needs, but also to look at our security needs.
    There will be a section on peacetime cooperation in the 
areas of ISR, maritime domain awareness, missile defense. We 
will also have a whole section that looks at international 
activities, as well as additional cooperation in space and 
cyber.
    So I think it will be, you know, a really important 
document to bring the alliance to the next level.
    Ms. Bordallo. Thank you. Thank you very much.
    Mr. Chairman, I have just one quick question.
    Admiral Locklear, what will be the impact of our rebalance 
strategy if sequestration remains in place?
    Admiral Locklear. If it remains in place, in general, in 
short, you will have less force, that are less ready, that are 
less technologically capable in an increasingly technological 
environment.
    Ms. Bordallo. Thank you very much.
    And I yield back, Mr. Chairman.
    Mr. Forbes [presiding]. The gentlelady's time has expired.
    The chair recognizes the distinguished gentleman from South 
Carolina, Mr. Wilson, for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank each of you for being here today.
    I just really have been impressed, Ms. Wormuth, your 
comments.
    And, Admiral, I am just grateful that I have a son who is 
currently serving in the Navy, and I have got three in the 
Army.
    And my visits, General, to the DMZ [demilitarized zone], 
again, such extraordinary people that you serve with, and 
making such a difference, indeed, for the Republic of Korea and 
their protection. And that is why, as I am thinking about the 
cyber offensive of North Korea, General, how is that being 
countered, and, with the efforts that they have made to disrupt 
the banks of South Korea and other activities? How is this 
being addressed?
    General Scaparrotti. Well, sir, I think, first of all, we 
are working very closely with our allies as a multinational 
community in this regard. And we have a very good cyber 
capability in the United States that is growing as well. This 
is a domain that we don't necessarily have superiority in. I 
think there is a lot--there is a lot of simultaneity out there 
in this domain.
    So we are working very hard. I think we stayed ahead of it 
well, but it will take that kind of effort and resourcing in 
order to continue to develop our capability. That is about what 
I would say here. It is difficult to get into that much 
without, you know, in an open hearing.
    Mr. Wilson. Well, again, we just appreciate your efforts so 
much.
    Additionally, Ms. Wormuth, I am really grateful to be the 
chairman of the Emerging Threats and Capabilities Subcommittee. 
The unconventional warfare tactics are a great concern to the 
entire committee and to myself.
    Could you please characterize your assessment of the 
unconventional strategy and tactics being used by China and the 
challenge these pose to the DOD's ability to counter them?
    Secretary Wormuth. Thank you, Congressman.
    I think, as Congressman Forbes talked about in terms of the 
Coast Guard capabilities, for example, or the maritime law 
enforcement capabilities that China has, China has been--China 
uses those assets to assert, to try to assert additional 
control over what it sees as its territorial claims. And I 
think that is a way where they are sort of using assets in an 
unconventional way.
    We are really focused, I think, on the building partner 
capacity side in trying to help partners in the region. Some of 
the smaller countries in Southeast Asia, for example, work on 
their own maritime security capabilities to try to counter that 
kind of unconventional use of assets.
    We also, though, are looking at, on the more technology 
side, we are looking at certainly our intelligence capabilities 
and are trying to strengthen our information operation 
capabilities, for example. And those capabilities are relevant, 
obviously, not just in the Asia-Pacific theater, but in many 
theaters around the world. I think, you know, we have seen a 
considerable use of unconventional techniques in Europe 
recently, given Russia's activities in Ukraine, for example.
    Mr. Wilson. And certainly that is to me such a tragedy, the 
invasion of Ukraine by the Russian Federation. I know that I 
had just so hoped for a modern European-inclined Russian 
Federation and that doesn't seem to be developing.
    Additionally, I am very concerned about North Korea's 
nuclear weapons policy. And, Ms. Wormuth, what does North 
Korea, the regime, what is their, what do you see as their 
capability of enhancing nuclear weapons delivery capabilities?
    Secretary Wormuth. Well, Congressman, we are certainly 
concerned, obviously, about North Korea's weapons of mass 
destruction capability, and its nuclear program in particular. 
You know, we--North Korea has not tested some of its 
capabilities, and we don't yet fully know what they are able to 
do in terms of their ability to miniaturize, for example, a 
nuclear weapon. But it is our assessment that it is prudent to 
plan for the worst-case scenario, which is why we are so 
focused on our national missile defense program, for example, 
and why we have made the investments to expand the number of 
Ground-Based Interceptors from 30 to 44, to try to make sure 
that we are keeping track with that, with that threat.
    I think fundamentally the North Korean regime believes that 
having a nuclear capability under--basically guarantees their 
regime survival, which is why they see it as so important. I 
would ask, I think, General Scaparrotti to elaborate.
    Mr. Forbes. The gentleman's time has expired, so would ask 
the General if he could do that for the record.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Forbes. And the chair recognizes Ms. Gabbard from 
Hawaii for 5 minutes.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    I will continue along the same topic here, and I think it 
is important for us to recognize that North Korea remains the 
most immediate military threat, not to only our interests 
within the region, but really to the U.S. directly, and 
important for us to focus on this immediate threat, especially 
within the context of the greater conversation that is taking 
place now and seeing how we can prevent Iran from getting to 
the point of having this nuclear capability.
    General Scaparrotti, I am wondering if you can speak to Mr. 
Wilson's question, but also specifically to the status of 
ballistic missile defense policy within the region and the 
level of cooperation that you are getting from our partners 
there, within the Republic of Korea and Japan specifically.
    General Scaparrotti. Well, thank you.
    First of all, to the North Korean nuclear capability, I 
would state it this way, that they claim to have a capability 
to deliver a nuclear-tipped ballistic missile. They have 
paraded it, they have shown it to us. But they haven't tested 
it, as the Under Secretary mentioned, and that is very 
important in something that is as complex as this. But as a 
commander, I have to be prudent and assume that they can 
deliver one and act on that basis.
    Secondly, in terms of ballistic missile defense, we bring 
our best systems to the peninsula. We work very closely with 
the Republic of Korea. This year, just this funding year, they 
committed in the last couple of months to upgrade their PAC-2 
systems to PAC-3, and they will be doing that over the next 
couple of years, And we are working closely with them over the 
next year or so to increase our interoperability and the 
ability to have a common operating picture.
    So I think we are moving in the right direction, given the 
threat. We have to keep pace with that, we have to continue to 
keep our focus on that.
    Ms. Gabbard. Thank you.
    Admiral Locklear, in your written statement you stated that 
currently there are roughly 1,300 ISIS [Islamic State of Iraq 
and Syria] foreign fighters who are coming from the Indo-Asia-
Pacific region. Can you speak to specifically which countries 
predominantly they are coming from? What is drawing them to 
ISIS specifically? And how do you characterize the threat of 
these foreign fighters coming back and returning to their home 
countries in the region and continuing these activities there?
    Admiral Locklear. Well, thank you, Congresswoman.
    We are working closely with our fellow COCOM [combatant 
command] in CENTCOM [U.S. Central Command] to actually have a, 
try to get a better sense of this phenomenon of foreign 
fighters that would be moving out of predominantly Asia, 
Southeast Asia.
    They come from a broad range of countries. It wouldn't--you 
know if you took a look at the list, it would surprise you, it 
wouldn't be what you thought. They come from a number of 
different places. We are not sure how many of them are 
dedicated fighters that go forward or are they just kind of 
wannabes that kind of trundle over there and decide they want 
to sign up for a new cause.
    And the numbers that are coming back, we don't have good 
fidelity on that at this point in time. But what it has done, 
it has opened up our information-sharing with all the countries 
in the region that are concerned about this problem, which all 
of them are. And this isn't just a mil to mil [military to 
military], this is a whole of government, agency, FBI [Federal 
Bureau of Investigation], those types of agencies are working 
hard on the problem.
    So the implications for Asia, in this, is if you just kind 
of just add up the number of Islam that is in Asia, it greatly 
overwhelms the number that are in the Middle East. So there is 
probably 400 million-plus, I would just say, just kind of 
making an estimate off it.
    Now, the difference is that they are generally moderate and 
they are less, I think, susceptible to violent extremism. And 
they have good governments, most of them do. They have better 
security environments that can monitor what is going on in the 
countries. So I think these are advantages that the Asia-
Pacific has that might not be available in all countries in the 
Middle East.
    So what we have is an opportunity here. We have an 
opportunity to assist them, to assist each other, to improve 
our information-sharing networks to see where this type is 
going, and then to be more predictable rather than reactive 
should it occur in the theater, and we are making good inroads 
in that.
    Ms. Gabbard. Do the governments of some of these countries 
recognize this threat? And are they reaching out to work with 
us in partnership to make sure that it doesn't grow?
    Mr. Forbes. The gentlelady's time has expired.
    Ms. Gabbard. Thank you.
    Mr. Forbes. So, Admiral, if you could answer that for the 
record, we would appreciate it.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Forbes. The gentleman from Alabama, Mr. Rogers, is 
recognized for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    General Scaparrotti, I know that we are in discussions with 
South Korea's government about the deployment of a THAAD 
[Terminal High Altitude Area Defense] battery on the peninsula. 
Can you tell us why that would be important for the protection 
of our deployed forces in South Korea to have put on that 
peninsula?
    General Scaparrotti. Well, the employment of a THAAD would 
give us a high-tier defense. And so, therefore rather--we would 
have a layered defense and those systems would enhance the 
capability of our present Patriot systems that are on the 
peninsula today.
    Mr. Rogers. Okay.
    Admiral, how many Chinese land-based cruise and ballistic 
missiles are located in your area of responsibility? And can 
you give me an estimate in the dozens or hundreds to keep it 
unclassified? And how many of these are between 500 and 5,500 
kilometers in range?
    Admiral Locklear. If you let me take that for the record, I 
would, and I will provide you a complete answer.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Rogers. Okay.
    Ms. Wormuth, when will the administration make a decision 
on INF [Intermediate-Range Nuclear Forces Treaty] violation 
responses? And has the Principals Committee even met on this 
issue?
    Secretary Wormuth. Congressman, we are again, I think, at 
this point in time of the view that it would be beneficial to 
remain in the INF Treaty if possible if Russia comes back into 
compliance, and we continue to have conversations with Russia 
about that.
    There will come a point in time where, if Russia continues 
to be noncompliant, I think we will have to take action to deal 
with the military capabilities that they are potentially 
putting in place that are not compliant with the treaty. This 
is something that is discussed at very senior levels. You know, 
there are any number of Principals Committee meetings where 
this type of conversation may come up.
    Mr. Rogers. They have been noncompliant for years. How much 
longer is this going to go on?
    Secretary Wormuth. I think, Congressman, again, this is 
something that we are looking at very carefully. I think, you 
know, our view is it would be beneficial to keep them in the 
treaty if possible. So we have not yet made that decision, but 
we recognize that we cannot let the current situation go on for 
an indeterminate period.
    Mr. Rogers. Yeah, in order to keep them into compliance, we 
have to get them in compliance, and they haven't been for years 
and they are not going to be. I hope that you all will start 
talking more seriously about some consequences.
    Admiral, with China increasing its capability in nuclear 
attack submarines, ballistic missile submarines, and even 
aircraft carriers, how do those developments and deployments 
affect U.S. force structure and planning?
    Admiral Locklear. Well, certainly any increase of military 
forces by the PRC require us to think through: Are the forces 
we have adequate to be able to understand what is going on day 
to day?
    In the case of their SSBN [ballistic missile nuclear 
submarine] forces, it becomes a homeland security, homeland 
defense issue, that will require resources for us to try to 
understand it and try to ensure that our country remains safe 
under all scenarios.
    In the case of aircraft carriers, I believe primarily they 
will use aircraft carriers for--just like we do, to project 
power. That is one of the deficiencies I think they are trying 
to overcome now, is the projection of power, and that may have, 
down the road could have global implications, and it will just 
put further stress on the ISR assets we have and it will change 
the calculus on how we might deal with any contingencies down 
the road.
    Mr. Rogers. Do you believe that the U.S. Government should 
be making it a priority to ensure that China is not able to 
obtain U.S. technology in our defense capabilities?
    Admiral Locklear. I do.
    Mr. Rogers. Thank you.
    That is all I have got, Mr. Chairman. I yield back.
    Mr. Forbes. The gentleman yields back.
    The gentleman from Hawaii, Mr. Takai, is recognized for 5 
minutes.
    Mr. Takai. Thank you, Mr. Chairman. Thank you also for 
focusing today's hearing on the Asia-Pacific as you know, that 
is very important for people from Hawaii.
    I wanted to welcome our witnesses. Under Secretary, 
Admiral, and General, thank you very much for coming.
    Admiral Locklear, it is my understanding that the Pacific 
Fleet and the Atlantic Fleet are funded through separate budget 
offices. Can you speak to what advantages that has and how it 
supports the geographical combatant commander?
    Admiral Locklear. Well, I would refer specific questions of 
that back to the Navy, because it is their internal workings. 
But my observation, it is of a historical nature. It was put 
that way because of the way that our fleets are laid down 
globally, and the significant influence that the Pacific Fleet 
has in the power projection of U.S. interest into what is over 
half the world. And I believe that there have been historic 
benefits to having that divide be there.
    Mr. Takai. Great. I appreciate that answer.
    And then are there any efforts underway to expand the use 
of training areas in the Pacific to support engagements of our 
regional partners and allies and more broadly connect ranges 
throughout the AOR [area of responsibility]? And can you speak 
specifically to the Pohakuloa Training Area on the Big Island 
and the Pacific Missile Range on Kauai, some of the 
infrastructure needs there, and more importantly, how resources 
are being allocated to support upgrades at training ranges in 
the PACOM AOR?
    Admiral Locklear. Thank you.
    As I previously laid out, you know we have a series of 
ranges that we need to support our forward forces. During that 
dialogue I did not mention Hawaii and I should have because 
that is where I live and where I breathe and where we have 
tremendous requirements.
    So in the case of the ranges on the Big Island, I am a 
supporter of moving forward with those ranges. We are in need 
of those if we intend to maintain a forward footprint of 
Marines and Army personnel in Hawaii, which I very fully 
support a robust presence there.
    The PMRF [Pacific Missile Range Facility] missile facility 
or missile range out there is a premier facility in the world 
as far as I am concerned, and that the investments will need to 
be made to keep it such. It has access to open space and open 
airways and open sea space that allow us to do, from Missile 
Defense Agency to all the other services, to be able do the 
right testing and evaluation of those systems that allow us to 
be relevant in the 21st century.
    Mr. Takai. Thank you.
    And, you know, this last question is something very 
important for people, especially on Oahu, and it is in regards 
to our groundwater supply.
    So it is my understanding that recently meetings were 
conducted between PACOM and the DLA [Defense Logistics Agency] 
Energy regarding the Red Hill underground fuel facility. And 
though we know that fuel storage is necessary and important to 
support strategy and posture of your AOR, what is the plan to 
upgrade the aging infrastructure to ensure that communities 
that surround Red Hill, in addition the Halawa Aquifer that 
supplies about half the island with their water, are safe from 
contamination of, are safe regarding the water supply?
    Admiral Locklear. Yes, sir. This is a high priority for me 
because we very much respect the opportunity to be in Hawaii 
and to have these facilities there.
    The need for fuel--I mean, the PACOM commander and the 
forces that are under me, I think, are the largest user of 
petroleum products probably in the world on any given day, and 
they have to be distributed throughout a vast area on only a 
very small number of nodes to be able to get at it.
    And, historically, the Red Hill facility has provided a 
huge strategic reserve in case something happens out here. And 
I anticipate we are going to need that strategic reserve for a 
number of decades. I can't put an end state on it, but it will 
be a number of decades before we have visibility on how we 
might address that with different types of fuels or different 
types of forces.
    So what we have done is, once we discovered that there was 
a potential leak in a couple of the tanks, we took immediate 
action to ensure there wasn't any damage to the water systems, 
and we have a comprehensive plan that both DLA and my staff 
have brought back to the legislature in Hawaii. I am happy to 
have somebody come brief you on that if you desire.
    But I think at this point in time we are in general 
agreement on the way forward that it is a good sound plan and 
it does what you indicated, it protects the environment of such 
a beautiful State.
    Mr. Takai. Thank you.
    And, thank you Mr. Speaker. I yield back.
    Mr. Forbes. The gentleman yields back the balance of his 
time.
    The gentleman from Georgia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Wormuth, my question is for the admiral and general, 
but I would like to say I am interested in any language 
suggestions that would cut this ridiculous appeals process that 
I think is one of the problems with us fielding the equipment. 
And some of these games that get played, if you will, from the 
people who are purchasing the equipment from--that slow down 
our ability to field the equipment I think is one of the 
reasons that the other countries are able to catch us, if you 
will. They don't have to deal with that bureaucratic process. 
And that is a pretty simple thing I think we could put an end 
to that would help national security.
    Gentlemen, I represent Robins Air Force Base and the airmen 
and the women that fly and operate the JSTARS [Joint 
Surveillance Target Attack Radar System] aircraft. Last year we 
had worked with the Air Force, there was a proposal to retire 
six of the E-8, since you know they are old aircraft, with old 
technology, and to begin the recapitalization of a new plane 
with a more modern radar that would give you more information.
    There was a proposal for a business class jet. I understand 
there has been a new analysis, a demand from the combat 
commanders, a decision is made to keep the entire fleet 
operational at this point. I would like for you to speak to the 
value of the JSTARS, how it benefits each of your missions.
    And then the Air Force's analysis of the alternatives for 
the JSTARS and the recapitalization concluded that a manned 
aircraft was necessary and absolutely essential. And the Korea 
Command and Pacific Command both have benefitted from this 
manned platform and the on-board battle management provided by 
the JSTARS. And can you discuss the extent to which your 
command's ISRs or requirements are being met?
    General Scaparrotti. Yes, sir. Thank you for that question.
    My top priority in terms of my requirements and requests 
through Department of Defense has been ISR. And specifically 
that aircraft, the JSTARS, is one that I need greater 
capability in terms of JSTARS, primarily because it provides us 
the MTI, Movement Target Indicator, and it allows us to queue, 
my other assets. So it doesn't work alone, it works in tandem 
with the other assets that are airborne. And I could use more 
than I have today.
    I appreciate the fact that the Air Force, because of the 
budgeting, needs to get a newer aircraft, but I appreciate the 
fact that they are retaining what we have, because even the 
loss of hours of the one that I have today would make a 
difference in my indicators and warnings on the peninsula.
    Admiral Locklear. It is a critically important capability 
in the ISR world, also in the battle management world, 
particularly when you operate in potentially contested 
environments, where other parts of your command and control may 
be under cyber attack or space attack. Having an aircraft that 
is manned that has that ability to have that functionality and 
thinking work is good.
    I understand the Air Force's need to recap [recapitalize], 
and so we have to manage the risk on how they bring the new 
systems forward. Manned versus unmanned. I think there--my 
concern right now is that we don't have the technology able to 
put everything we need to in an unmanned system. I think that 
is what the Air Force is probably grappling with. So what would 
not be beneficial to me or to General Scaparrotti would be a 
replacement system that didn't replace it.
    Mr. Scott. One of my concerns is, as you are forced to 
make, through all of the DOD and the agencies, as you are 
forced to make decisions based on the sequester instead of 
based on what the national security needs are, is that we end 
up with Army standing up for Army, and Navy standing up for 
Navy, and Air Force for Air Force. And we just need to make 
sure that those platforms, those ISR platforms that we use that 
operate across those what should be imaginary lines, if you 
will, don't get sacrificed.
    And, I just, I appreciate all of you and what you do for 
our country and look forward to continuing to work with you to 
provide those JSTARS and that ISR platform.
    And, ma'am, if you have suggestions on language that will 
stop that bureaucratic problem, we would happy to work with you 
in the NDAA [National Defense Authorization Act] to put it in 
there.
    Secretary Wormuth. Thank you. I will take that back and we 
will get back to you.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Scott. With that, Mr. Chairman, I yield back.
    Mr. Forbes. The gentleman yields back the balance of time.
    Mr. Ashford, you are recognized for 5 minutes. No 
questions.
    Mr. Nugent from Florida is recognized for 5 minutes.
    Mr. Nugent. Thank you, Mr. Chairman. And I want to thank 
our panel for being here today.
    And, General, having been to South Korea, I think I was 
there in 2005 or 2006, not--I was not in this job, but I 
visiting my son who was stationed there, that is a special 
area. And you certainly are at great risk there, all of our 
service men and women and civilians that are there are 
certainly at great risk, particularly close in Seoul and on up. 
So I certainly do appreciate that.
    I had the opportunity here just recently to go out. I did 
not get back out that far, nor did I get to Guam, but I got out 
to Hawaii and San Diego in regards to visiting our naval forces 
and some of our Marines that are stationed out there. And I was 
impressed with, I guess, the leadership.
    And, Admiral, I met with you in Hawaii. I was impressed, 
though, not only with your leadership, but the leadership of 
those that are in your command, from a destroyer skipper, to an 
LCS-4 skipper, and others, in regards to how they take their 
mission and how they accomplish it, and also at the BUD/S 
[Basic Underwater Demolition/SEAL] training facility in 
Coronado with our SEALs [Sea, Air, Land]. We have, and we talk 
about this all the time about equipment, but it is the 
personnel that man that equipment that makes the difference, I 
think.
    But what I am concerned about as we move forward, and you 
have talked about it, that we have had to accept more risks and 
we are concerned about having adequate resources. Could you 
explain to us, and maybe we can do a better job of explaining 
this to the American people, first of all, why is the Asia-
Pacific area so important to us? And (b), what are the 
additional risks that we are accepting because of the lack of 
providing the proper resources?
    Admiral Locklear. Well, thank you, sir, and thanks for your 
visit to PACOM. It was good for us.
    If you take a look at the Asia-Pacific today, my AOR is 
about 52 percent of the world, 36 nations. Of those nations, 
there's--seven of them are key allies. I mean five of them are 
key allies. We only have seven defense treaties and five of 
them are there, and they--we believe that they are historic and 
they will go forward and be important for the future.
    Today, about 6 out of 10 people alive live in the Asia-
Pacific. My AOR, if you just characterize it as 83 percent 
water, 17 percent land, and on that 17 percent of the land, 6 
out of every 10 people alive live there. Eventually, if the 
population goes to 10 billion like we expect it to, roughly, 
before it caps out, it will go to about 7 out of every 10 
people. That is going to be the economic engine of the world. I 
think Secretary Carter in his speech to, the other day in 
Arizona pointed out, I think there is about half a billion 
middle-class consumers in the Asia-Pacific. And by 2030, he 
predicted in his speech, it would go to 3 billion.
    So this is where the people who are going to have money are 
going to be spending it in a global economy, and that global 
economy is where I want my four grandsons to be able to compete 
in. And I want American systems over there, systems that are 
similar to the value systems we have, systems of law and order, 
systems of economic, economic systems that they understand and 
then they can compete in.
    So what we have to do I think is to ensure that, number 
one, that we, to the degree we can, that we maintain a security 
environment that is similar to what we have enjoyed for the 
last 70 years, one that reflects the security of this country 
and the values of this country.
    To do that, you have to be there. You have to be there in 
many ways. It is not just about the military, but the military 
is a big component of it. Military forces have to be there, 
they have to be part of those nations there, they have to be in 
there working with them. They have to be shaping the day-to-day 
environment and the landscape.
    And so as the world changes, and as the military 
capabilities in this AOR over the countries change, we have to 
ensure that we have the right relevance there to ensure that we 
can compete in the Asia-Pacific for the next century.
    Mr. Nugent. One of the things that we really haven't 
touched on is Russia is playing in that area also. And I know 
we have talked about China and we talk about all those things. 
But is Russia not playing in that area or starting to exert 
more?
    Admiral Locklear. Well, Russia in the last few months has 
returned to, I would say, nearly a Cold War level of activity 
that goes towards our homeland, with long-range attacks, you 
know, exercises, and those types of things. We also know that 
Russia will improve their strategic nuclear deterrent on what 
is their East Coast, which is in the Northern Pacific.
    They also are improving their submarine force that operates 
in that area and are exerting increased influence not only in 
the Arctic, which they will tend in that direction from my AOR 
in, but also in Northeast Asia. And we see a greater presence 
of them in, just this year in Southeast Asia as well.
    So it just adds to the amount of interesting things that a 
PACOM commander has to think about every day, and the amount of 
ISR that I need to track them, the sophistication of the 
systems I have to be able to deal with them. I mean, the key is 
for us to manage the security environment on our terms, not 
have to respond to someone else's.
    Mr. Forbes. The gentleman's time has expired.
    Mr. Nugent. Mr. Chairman, I appreciate the indulgence, but, 
and the Chairman mentioned this about the INF Treaty. I think 
that is an important issue for us as we move forward, 
particularly as it results to Russia now playing again in a 
Cold War atmosphere in the Pacific.
    Thank you. I yield back.
    Mr. Forbes. Thank you.
    And the gentleman from Oklahoma, Mr. Bridenstine, is 
recognized for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I have a question for Admiral Locklear and General 
Scaparrotti. When you think about the assessment of the 
technological imbalance between specifically us and China, and 
us and North Korea, can you share what your assessment is right 
now as it concerns cyber and space, those two elements, for 
each one of you as it relates to China and North Korea?
    Admiral Locklear.
    Admiral Locklear. Well, my observation is I am a firm 
believer that anything we choose to be dominant in we can be. 
So we just have to make that decision.
    Mr. Bridenstine. Are we currently dominant?
    Admiral Locklear. Yes. That is my assessment.
    Mr. Bridenstine. Is the trajectory going to sustain that 
dominance, the trajectory that is going on right now?
    Admiral Locklear. No.
    Mr. Bridenstine. Okay.
    Admiral Locklear. Now, in the case of cyber, clearly PRC is 
a big actor, Russia is a big actor. I would say they are 
probably at the top tier. You drop down it would probably be 
North Korea and Iran. And then certainly we are in the top tier 
of cyber capabilities and probably lead the way in cyber 
defense capabilities, cyber understanding. But it is, as 
General Scaparrotti pointed out earlier, it is an interesting 
environment, it is an interesting domain that is changing 
rapidly.
    In the case of space, I think what we have seen with the 
PRC that concerns us the most is their willingness to do 
offensive things in space, counter-space activity with the ASAT 
[anti-satellite] missile they fired a while back and some of 
the other programs I think they are developing that to, that 
would limit our ability to use those space assets in our favor, 
which we do need to stay forward globally.
    Mr. Bridenstine. General Scaparrotti, will you address 
cyber as it relates to North Korea?
    General Scaparrotti. Yes. In terms of cyber, as I said, I 
agree with Admiral Locklear, I think they are probably the B 
team right now. But they, since 2009, have said they are going 
to develop that capability, and we have seen even in the past 
year that capability improve.
    So as I said, it is a dynamic domain. We are building 
teams. We are using our intelligence to develop our skills, the 
types of skills we need every day, and we are going to have to 
stay on that. And that has to be resourced. As you know, in DOD 
we are resourcing CYBERCOM [Cyber Command]. They train those 
teams that come out and help in PACOM's headquarters and mine. 
And that would be difficult to do under sequestration, I think.
    Mr. Bridenstine. Thank you for that.
    One of my concerns is that, and I have heard General Hyten 
talk about this, that, you know, satellites and networks, they 
don't have mothers. And so when we think about defending our 
forces, those satellites and those networks directly affect the 
people, those of us who serve in our country's uniform. We do 
have mothers. And so from my perspective, we need to maybe 
think about space a little differently.
    Ms. Wormuth, would you like to address this?
    Secretary Wormuth. Congressman, if I may. I think, a, you 
are absolutely right, and both the admiral and general are 
right, that China in particular I think has identified space as 
a potential vulnerability area. They see that--they see being 
able to hit us in space as an important way to try to come 
after us if that were ever to come to pass.
    Given the importance of space to all of our joint force, 
that is one of the areas in the PB16 budget [President's budget 
for fiscal year 2016] where we made some very specific and 
significant targeted investments to try to make sure that we 
stay ahead of that curve. And I think it was very much coming 
from the place of recognizing that that is an important 
capability that sort of underpins all of our ability to be 
effective.
    Mr. Bridenstine. So as a Navy pilot we have rules of 
engagement and we have hostile intent and then hostile act. And 
depending on where you are in the world and what is happening 
you can respond different ways.
    When it comes to our space communication architecture, when 
it comes to our GPS [Global Positioning System] architecture, 
when these come under attack, whether it is jamming or kinetic, 
this directly impacts those of us who fight war. And to the 
extent that we are not fighting a war, it directly impacts the 
safety of those of us who happen to be on the other side of the 
world where there are hostile countries.
    From a policy perspective, can you share with us, what is 
the position of the administration on how we treat, say, 
dazzling of an intelligence satellite or potentially, what is 
our, can we do kinetic affects if they jam GPS or if they jam 
our communication architecture in space? Can you share with us 
kind of the policy on that?
    Secretary Wormuth. I think, Congressman, what I would say 
here is that, again, we very much recognize that one of the key 
advantages we have is the networked space-enabled force that 
our military has. And we want to make sure that we protect that 
capability and that we continue to have the ability to keep our 
forces able to operate in that networked environment, and we 
know that there are potential adversaries that are trying to 
break that capability.
    If it is all right with you, I would be happy to have a 
team come up and brief you about our space policy in a 
classified setting. I think that would be able to address your 
concerns.
    Mr. Bridenstine. Absolutely.
    Mr. Forbes. The gentleman's time has expired.
    The chair recognizes the other gentleman from Oklahoma, Mr. 
Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you, Madam Secretary, Admiral, General.
    Part of the concerns that I hear, Madam Secretary, about a 
policy push on the trade Pacific authority, the trade 
partnership authority and the move to the Pacific is that if 
you look at history, when Commodore Perry went in and said we 
are going to open up Tokyo, and did, they immediately adopted 
our ways. We saw within two generations incredible industrial 
capability, military doctrine, to the point where they even 
defeated a world power.
    John Hay at the turn of the century then developed an open-
door policy with China as a hedge on Japan, almost using the 
same terms, hegemony. And now we see this push into the 
Pacific, and while we have had briefings here in the last 
couple of years with the same talks of how we are going to 
expand or change our posture or do different things, now it 
does not seem that the diplomatic or military advances are 
keeping pace with the trade advances.
    Unfortunately, in 15 years we went from ally, making ships, 
signing naval treaties, to having to melt Japanese out of 
pillboxes and drop atomic bombs on their cities. I would hope 
that as we make an advance and a pivot into the Pacific, that 
we would not make those same policy errors.
    My question would really be to the admiral or to the 
general. Missile defense seems to be the greatest short-term 
threat that we could possibly face. You have limited AN/TPY-2 
[Army Navy/Transportable Radar Surveillance] radars. The 
funding for those and the building of those does not seem to be 
a priority, and yet they may be the very things that stand 
between us and this incredible threat. How is that being 
addressed?
    Admiral Locklear. Well, Congressman, I would refer the 
specific timelines to the Missile Defense Agency and the 
services who buy them. But let me just talk about missile 
defense in general.
    I am faced with two problems, and General Scaparrotti is 
part of the second one. One is I have a homeland defense 
support requirement where not only do I have to defend Guam and 
Hawaii from potential missile attacks, but also have to support 
NORTHCOM [Northern Command] as NORTHCOM were to transition to 
where we would have to defend the homeland from maybe a rogue 
attack from North Korea. And so we moved rapidly to put things 
in position in the last decade that I think give us a relative 
assurance on our homeland defense.
    We have guided missile destroyers that operate in the 
north. We put a--the THAAD radar, we put that in there in about 
less than a month into Guam when we knew that there was a 
potential for a launch from North Korea, which was really 
fabulous that the Army could move that fast and make it happen. 
We fast-tracked the TPY-2 radar that was put in Shariki in 
Japan, so now we have two of those going, and we are having 
dialogues about where a third THAAD may go.
    The second part of our problem is defending forces in the 
theater and defending forces in an ever-increasing environment 
of ballistic missiles. And these can be short range, they can 
be directed at aircraft carriers, directed at ships, they can 
be directed at land bases. And you can't defend against all of 
them. There are just too many of them. You can't buy enough 
interceptors. So what you do do is you buy enough to give you 
confidence that you can deter and that when conflict were to 
start, to give you enough time to be able to get the rest of 
your war plan going.
    Mr. Russell. And I appreciate that, Admiral, and thank you. 
I--In fact, it brings up the larger concerns of power 
projection and even long logistical lines for reinforcement 
even if we can project power. This month in history over 
100,000 Americans had to surrender at Bataan, not for a lack of 
fight, not for lack of leadership, but for lack of capacity to 
get to them. And with a lot of these things, I realize the 
constraints that each of you live under. And the policy has 
shifted, but we don't necessarily see the resources coming your 
way.
    How would you--what counsel or what advice would you give 
to Members of the Congress of how we correct that as we look at 
a complete pivot in changing the economies globally and the 
friction points that that will create, and yet not have a 
Bataan-like future or an inability to project power and to also 
sustain it? Either one.
    General Scaparrotti. Yes, sir, thank you.
    I think, in terms of the projection of power, I am probably 
the best example of that requirement. I have 28,500 service 
members on the peninsula, sufficient for today, but certainly 
if we begin to escalate, specifically to BMD [ballistic missile 
defense], I will ask for additional ballistic missile defense 
assets very quickly in order to safeguard not only our military 
installations, but the American civilians we have there and 
along with our ROK [Republic of Korea] allies.
    So when we look at resourcing, the impact of sequestration 
in 2013, et cetera, it reduces the readiness of the force. And 
what I will need on the peninsula are forces that arrive ready 
to fight in a high-intensity conflict. And then also the impact 
of sequestration or reduction of resources, as you mentioned, I 
will need them on a pretty specific timeline, because I have a 
large adversary in close proximity to the capital of South 
Korea.
    Mr. Forbes. The gentleman's time has expired.
    Ms. McSally is recognized for 5 minutes.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you all for your time and your testimony.
    General Scaparrotti, I want to talk about the potential 
impact of divesting in the A-10 and the impact that that is 
going to have on our capabilities with your mission. And then 
also, Admiral Locklear, in general in the theater.
    The depleted uranium on the 30 millimeter, specifically the 
antitank capabilities, I know you have shared in your testimony 
about how North Korea is going more towards asymmetric 
capabilities, but there is still a very real conventional 
threat, as you know. And should we have to deal with that, 
having been a part of units that were supposed to be heading 
your way to be reinforcements to those that are stationed right 
there, it is a pretty tight timeline to be able to react in a 
very short geographic area, as you know.
    So gaining and maintaining air superiority and then making 
sure that we have the anti-armor capability against North 
Korean capabilities is really important.
    So if the President's budget were to be fulfilled and the 
A-10 would be divested in, you would lose the capability of the 
depleted uranium, and the A-10 squadron is right there at Osan. 
What capability gap does that provide for you and what are the 
plans to fill that gap in order to address this particular 
threat?
    General Scaparrotti. I thank you. As you said, the A-10 was 
designed for a specific capability and it is very good at that. 
Being an infantryman, I have high regard for its ability to 
support ground troops. And in the region that I am in, 
particularly in mountainous region, it also can get low and it 
can turn in tight spots.
    Having said that, I recognize too the Air Force's 
difficulty in terms of the funding and the need with an aging 
aircraft, with reduced funds, to perhaps move away from that 
and go to a multirole ship. And I have been assured that if the 
A-10 were to come out there would be a multirole aircraft that 
would replace that squadron on the peninsula. And I would need 
that. I would need additional air.
    Ms. McSally. Okay. But the F-16 doesn't have the depleted 
uranium or the antitank. I want to focus specifically on 
antitank. We are often talking about close air support in Iraq 
and Afghanistan and other areas where the A-10 brings unique 
capabilities. But if we are talking about piercing armor and 
the antitank capability that the 30-millimeter with depleted 
uranium brings, and the F-16s, F-15s, they don't have that 
capability. So what gap does that create for you and what do 
you think is going to be replacing that?
    General Scaparrotti. Well, I don't know from the Air Force. 
I mean, frankly, I would use air in different ways, the 
multirole aircraft, and then use the systems that I have on the 
ground primarily against their armor threat. And, so it would 
open a gap in terms of having that aircraft for that specific 
capability.
    Ms. McSally. Right. And I think the last thing that we want 
to be doing is be relying on having to have a tank battle, 
right, in a day and age where we have the capabilities to, and 
we have the plans, to be able to take out those capabilities 
from the air. We certainly wouldn't want to roll back that 
capability and have our guys on the ground having to fight that 
when we do actually possess the capability in the air to be 
doing that with the A-10.
    So you agree that it would create a gap.
    General Scaparrotti. It would, yes.
    Ms. McSally. Okay.
    And, Admiral Locklear, do you agree just in the larger 
plans, we have been very much focusing on near-peer, 
conventional, potential scenarios in the future. So the close 
air support and the antitank capabilities that you would be 
lacking without the A-10, is that something that you think is 
also a gap for the greater mission that you have?
    Admiral Locklear. Well, it is certainly nice to have 
everything you could have when you need it. I would say that in 
general in the Asia-Pacific, other than the Korean Peninsula, 
that the close air support mission is of a lesser concern to me 
in general. But as the Air Force moves forward with the systems 
they have to move forward in the future, I think you are going 
towards a close air support model with airplanes that have 
improved precision-guided missile weapons that can go against 
tanks and can deal with a broader array of them.
    Ms. McSally. Okay. Thank you.
    Again, we talked about the F-35 yesterday in a separate 
hearing, but the munitions capabilities on the F-35 actually 
are not an armor-penetrating capability, and survivability is 
in question, especially when you do get into that close fight. 
I mean, I agree, you have got a high-end challenge that you 
have to deal with for sure, and we have got to be able to meet 
that both with air and naval forces. But if we do have men and 
women on the ground in harm's way in any potential scenario, we 
do want to make sure that obviously we can protect them with 
the best capability that we have.
    So I appreciate your responses. Thanks for your service as 
always.
    And I yield back, Mr. Chairman.
    Mr. Forbes. The gentlelady yields back.
    And Mr. Courtney is recognized for 5 minutes.
    Mr. Courtney. Thank you, Mr. Forbes.
    And thank you to the witnesses for being here today.
    Yesterday morning Under Secretary Kendall was sort of a 
featured speaker at the sea, air, and space gathering over in 
Virginia, you know, packed room. Talked about a lot of the same 
issues that are being discussed here, that narrowing gap that, 
Admiral Locklear, you referred to earlier this morning.
    But what is interesting is at the end of his remarks he 
actually pretty passionately used a pretty good chunk of his 
time talking about STEM [science, technology, engineering, and 
mathematics] education in this country as really a critical 
component of our national security long term, and particularly 
with the narrowing gap that Admiral Locklear mentioned.
    The STEM Education Council, which is a pretty extraordinary 
coalition of Microsoft, National Association of Manufacturers, 
you know, all the hard-science professional educators, American 
Farm Bureau, released a report recently where they talked about 
23 percent of the graduate degrees in STEM in the world today 
are China and 10 percent are the U.S. And that kind of, I 
think, particularly when we talk about Asia-Pacific and the 
challenges, and again looking beyond just today's budget year, 
that point that I think Under Secretary Kendall was making is 
pretty powerful.
    And we talk about sequestration and trying to balance 
defense and nondefense. I mean the fact is that education is 
one of those that could ``pay the price,'' quote, unquote, if 
we just had a sort of lopsided approach to dealing with 
sequestration. But long term, in terms of our defense, that is 
just adding to that disparity that is pretty disturbing right 
now.
    So, Ms. Wormuth, then just wonder if you maybe wanted to 
comment on that, anyone else, about what you see out there in 
terms of where China's investment in education and the increase 
in capabilities that we are seeing emerging domestically from 
their country.
    Secretary Wormuth. Thank you, Congressman.
    I think that Under Secretary Kendall, as he often does, was 
making a very good point. And we are very much looking at the 
strides that countries in the Asia-Pacific region are making in 
terms of science and technology and mathematics. And it is 
clear that in our country we don't--have a harder time, for any 
number of reasons, convincing our young people to go into those 
areas, but it is critical. And making sure that we have the 
educational policy and funding for those types of skills is 
what we are going to need very much to be able to remain 
competitive in those fields in the future.
    And I think Secretary Carter has talked about this issue as 
well. And not only do we need to find ways to get more folks 
into those areas as they pursue their higher education, but 
also we are looking at how in the Department of Defense do we 
find ways to bring more people with those types of skills into 
our system, because part of what we need to do to be able to 
remain competitive and to be innovative and to get after some 
of these technology challenges is to be able to bring in those 
sort of fresh people with new, fresh ideas. And that is 
something that our Department probably needs to be a little 
more agile about.
    Admiral Locklear. I would agree. I mean, how we recruit the 
force of the future has to be part of a national dialogue. I 
mean, 1 percent of the American people day to day defend it. 
Some of them are the most highly technical people that this 
country can produce. And if we don't have a system underpinning 
it that produces enough for us to lead the world, we will not 
be as successful. I know the service chiefs are all engaged on 
this thought process. Where does that future force come from?
    Mr. Courtney. Thank you. I mean, this is the 60th 
anniversary of the launching of the Nautilus. And Admiral 
Rickover in his final days actually almost stopped talking 
about the nuclear Navy and was really focused on U.S. education 
policy for precisely those reasons.
    And, again, the threat in Asia is where I think this 
imbalance is really the most acute. And, again, I think as we, 
this committee should look at the big picture here in terms of 
just what is national defense really, what are the building 
blocks of it. And having an educational system that is prepared 
to provide the workforce for both the military and obviously 
the people who develop our weapon systems and weapons platforms 
has really got to be part of that discussion.
    So thank you for your testimony today.
    I yield back.
    Mr. Forbes. The gentleman yields back.
    And the chair recognizes the gentleman from Ohio for 5 
minutes.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    We have talked a lot about the region today, and I want to 
focus a little bit on our allies in the region. And maybe touch 
on a little bit, if you would, about their efforts of 
increasing their capabilities, not only in traditional warfare 
aspects, but, say, cyber and space and how we are coordinating 
with them, if you would.
    General Scaparrotti. Sir, if you would, I will go first 
with the Republic of Korea. First, overall within their defense 
budget over the past 4 years or so they have been averaging 
about 4 to 5 percent increase in their defense budget. This 
past year it was 2.5 percent of their GDP [gross domestic 
product], which is very good compared to, say, our NATO [North 
Atlantic Treaty Organization] allies, et cetera.
    And so they have been focused on meeting the capabilities 
that they need, given the evolving threat in North Korea, but 
also in order to meet the commitments that we made together as 
an alliance. An example being the funding of the PAC-3 upgrade 
and the missiles for those, this year Global Hawk, last year to 
assist in ISR, an improvement in their C4 systems, command 
control communications, computers, to enable them as we go to 
OPCON [operational control] transition, to ensure that they can 
lead a combined force in a high-intensity conflict.
    So overall I think they are focused on that. Within their 
budget they have the same challenges that we do in terms of the 
social demand and the competition with defense and the expense 
of the systems that they have to put in place in order to 
increase their military's capability and to deal with the 
threat that is evolving in the north.
    Dr. Wenstrup. And what about Japan?
    Secretary Wormuth. I am happy to speak a little bit to 
Japan. Again, I think we have an incredibly strong relationship 
and alliance with Japan, and that will be renewed and I think 
brought to the next level with the completion of the defense 
guidelines that are going to be completed by the end of this 
month.
    They, as you know, are buying a large number of F-35s. They 
have expressed an intent to buy the V-22. They also are working 
on upgrading their Aegis platforms. They are working with us on 
Global Hawk. So they are also, I think, doing a tremendous 
amount to upgrade their capabilities. And then we also have a 
very significant cooperative production project with them for 
the SM-3 II missile. That is a $3.2 billion cooperative program 
with Japan.
    Dr. Wenstrup. Admiral.
    Admiral Locklear. Well, in addition I would say that the 
Philippines, who is another key ally of ours, we have in 
negotiation for an Enhanced Cooperative Defense Agreement. That 
is currently being debated inside the Philippines on the 
political side. But that has an opportunity to help them 
improve to get them to a better minimum credible defense. It 
also has the opportunity for us to strengthen that alliance and 
strengthen our position in Southeast Asia.
    Our other ally, Australia, making good strides. I mean, it 
is a great alliance. As far as I can tell, they are increasing 
defense spending. They are having a good dialogue about how 
they will partner with us. They are thinking about extending 
their capabilities in submarine warfare and some other areas, 
amphibious warfare.
    So in general I would say the trend of our allies across 
the board is that they are investing more in their defense and 
in their security rather than less, and they are investing more 
in directions that are complementary to our capabilities, so 
that we all enjoy the same mutual benefits of that security 
architecture.
    Dr. Wenstrup. Thank you very much.
    I yield back.
    Mr. Forbes. The gentleman yields back.
    And with that, Madam Secretary, General, Admiral, thank you 
so much for being with us today. We are getting you out right 
on time. And we appreciate, as you heard all of our members 
express, their appreciation to you for your service to our 
country, but thank you for being willing today to educate, 
advise, and consult with us as we try to be a component part of 
the national defense of this country.
    And with that, we are adjourned.
    [Whereupon, at 11:59 a.m., the committee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             April 15, 2015
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 15, 2015

=======================================================================

      

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 15, 2015

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    Admiral Locklear. The solutions to many of the ``grey zone'' 
challenges in the region are not military in nature. As I stated during 
my testimony, the military needs enough persistent, deep-look ISR 
assets to better understand the activity in the region; however, the 
solutions to such challenges largely reside in other areas of 
government. Diplomacy, not aggression, is the regional trend and still 
the best course of action. PACOM, together with the Office of the 
Secretary of Defense and the Department of State, are working with our 
allies and partners in the region to create multilateral mechanisms to 
maintain peace and security in the region. One positive example of a 
multilateral effort that deserves continuing U.S. support is ASEAN's 
role in addressing common security concerns and non-traditional 
threats. ASEAN is doing this through confidence building measures, 
preventive diplomacy, and its leadership on the Implementation of the 
Declaration on the Conduct of Parties in the South China Sea and the 
development of a Code of Conduct in the South China Sea. [See page 17.]
    Admiral Locklear. Regional governments largely acknowledge the 
threat from ISIL and the potential return of Foreign Terrorist 
Fighters. In response, several countries have either passed new 
Counter-Terrorism (CT) legislation or reinterpreted existing 
legislation to hinder Foreign Terrorist Fighters activities. Some 
efforts are underway to impact on-line recruiting and radicalization 
activities. There are a variety of partnering opportunities in the 
region available to counter ISIL. Most have been built over the past 
decade as nations have worked diligently--individually and 
collectively--to address the problem of violent extremism. These have 
been strengthened and reinforced since the rise of the ISIL threat. 
Regional organizations like ASEAN recognize terrorism as a top concern, 
and counter-terrorism cooperation is a component of most of our 
bilateral relationships.   [See page 22.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. ROGERS
    Admiral Locklear. The People's Republic of China (PRC) has 
approximately 1,900 land-based cruise and ballistic missiles. Of these, 
about 1,540 have ranges of between 500 and 5,500 kilometers in range.   
[See page 22.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT
    Secretary Wormuth. Regarding specific NDAA language proposals on 
streamlining the acquisition process and on improving the handling of 
contract award bid protests, I defer to the Under Secretary of Defense 
for Acquisition, Technology, and Logistics, Mr. Frank Kendall. From a 
policy standpoint however, I share your concern that DOD needs a 
faster, more efficient, and more responsive acquisition process in 
order to retain our competitive technological edge and bring critical 
capabilities to our forces. This is the goal of DOD's Better Buying 
Power 3.0 program, announced in 2015. This program is intended to 
implement best practices to strengthen DOD's buying power, achieve 
greater efficiencies, and eliminate unproductive processes and 
bureaucracy, while promoting competition.   [See page 26.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
